APPENDIX

1a
APPENDIX A
_________
IN THE
SUPREME COURT OF THE STATE OF UTAH
_________
ROBERT C. STEINER AND WENDY STEINER-REED,
Appellants and Cross-Appellees,
v.
UTAH STATE TAX COMMISSION,
Appellee and Cross-Appellant.
_________
No. 20180223
Filed August 14, 2019
_________
On Direct Appeal
_________
Third District, Salt Lake
The Honorable Noel S. Hyde
No. 170901774
_________
Attorneys:
Peter W. Billings, William H. Adams, Nora K.
Brunelle, David P. Billings, Salt Lake City, for
appellants and cross-appellees
Sean D. Reyes, Att’y Gen., Stanford E. Purser,
Deputy Solic. Gen., Erin T. Middleton, Asst. Solic.
Gen., John C. McCarrey, Mark E. Wainwright, Asst.
Att’y Gens., Salt Lake City, for appellee and crossappellant
_________

2a
ASSOCIATE CHIEF JUSTICE LEE authored the opinion
of the Court, in which CHIEF JUSTICE DURRANT,
JUSTICE HIMONAS, JUSTICE PEARCE, and JUSTICE
PETERSEN joined.
_________
ASSOCIATE CHIEF JUSTICE LEE, opinion of the Court:
¶1 The Utah State Tax Commission disallowed
certain tax deductions claimed by Robert and Wendy
Steiner on their tax returns. The Steiners filed a
challenge to that determination in the tax court. In
that forum, the Steiners asserted that the United
States Constitution, specifically the Dormant
Commerce Clause and the Dormant Foreign
Commerce Clause,1 mandated that Utah allow their
claimed deductions relating to (1) income earned in
the United States but outside of Utah and (2) income
earned in foreign countries. The Steiners also cited
the Utah Code section 59-10-115(2), in support of
their latter claim. The tax court agreed in part. It
allowed the second set of deductions but disallowed
the first.
¶2 Both parties appealed. We affirm in part and
reverse in part. We agree with the State and hold
that neither set of deductions is mandated by the
United States Constitution. Nor are the deductions
required by the Utah Tax Code.

1

Throughout this opinion we refer to both the “Dormant
Commerce Clause” and the “Dormant Foreign Commerce
Clause.” We refer to them this way, despite the fact that we
cannot find either such clause in our copy of the United States
Constitution, for the sake of simplicity and concision.

3a
¶3 Our constitutional analysis is in line with our
2015 decision in DIRECTV v. Utah State Tax
Commission, 2015 UT 93, 364 P.3d 1036. There we
noted the lack of any textual or originalist mooring
for the doctrine that has built up around the concept
of dormant commerce, while also lamenting the lack
of any “clear, overarching theory” in the decisions of
the United States Supreme Court in this field. Id.
¶ 45. We acknowledged, of course, our duty to follow
controlling precedent from that court. But we
emphasized
the
difficulty
of
“anticipat[ing]
expansions of the law” in this field “into new
territory” not yet explored by the Supreme Court. Id.
And in the absence of clear direction (in text, history,
or precedent), we declined to make a guess about the
direction the case law might take in the next case
that comes before the Supreme Court. Id.
¶4 We resolve this case on this basis. We find no
controlling precedent from the United States
Supreme Court that mandates a decision striking
down the challenged Utah tax provisions on dormant
commerce grounds. And we uphold their
constitutionality on that basis.
I
¶5 The Steiners filed joint tax returns as Utah
residents in tax years 2011, 2012, and 2013.
Although their income included earnings from
various sources, the only component at issue on
appeal is the tax on business income earned by
Robert Steiner (Steiner).

4a
¶6 Steiner is a shareholder of Steiner, LLC, which
is taxed as an S corporation.2 He is also a beneficiary
of the G.A. Steiner Trust (the Trust), which is the
majority shareholder of Steiner, LLC. The Steiners’
income from Steiner, LLC during the relevant period
included both amounts passed directly to Steiner by
virtue of his direct stake in Steiner, LLC and
amounts attributable to Steiner as a beneficiary of
the Trust.
¶7 Steiner, LLC is the sole shareholder of Alsco,
Inc. Alsco is a textile rental business, which along
with its subsidiaries does business in the United
States and around the world. Alsco and all of its
subsidiaries that do business in the United States
have elected to be taxed as Qualified S Subsidiaries.
Thus, all of the income derived from these entities is
passed through to Steiner, LLC. Steiner, LLC, in
turn, passes the income through to its individual
shareholders, including Steiner. Such income is
accordingly reflected on the Steiners’ joint tax
returns. Most of Alsco’s foreign subsidiaries have
elected to be taxed as partnerships for U.S. tax
purposes. Ninety-nine percent of the income from
each subsidiary is passed through to Alsco as a
partner. This income goes through the same passthrough waterfall and ends up on the Steiners’ joint
tax returns as well.
2

That means that Steiner, LLC itself does not pay any
federal or state-level tax. See 26 U.S.C. § 1363; UTAH CODE
§ 59-10-1403(1). All of its income passes through to individual
shareholders’ tax returns (in proportion to their ownership
interest). 26 U.S.C. § 1366; UTAH CODE § 59-10-1403.1(2). The
individuals then pay taxes on the amount passed through to
their individual returns. 26 U.S.C. § 1366.

5a
¶8 On their federal tax returns during the relevant
years the Steiners claimed, and received, a tax credit
for the taxes they had paid to foreign jurisdictions.
On their Utah tax returns, the Steiners claimed a
state tax credit for taxes they paid to other states.
These credits are explicitly allowed by the Utah Tax
Code. UTAH CODE § 59-10-1003. But the Steiners also
claimed an “equitable adjustment” under Utah Code
section 59-10-115 — an adjustment excluding foreign
income from their Utah taxable income.
¶9 The Utah State Tax Commission3 audited the
Steiners’ tax returns. The Commission disallowed
the “equitable adjustment” for foreign income. But it
also recalculated the state tax credit and determined
that the Steiners were entitled to a larger credit than
they had claimed.
¶10
The
Steiners
filed
a
Petition
for
Redetermination challenging the Commission’s
disallowance of the equitable adjustment for foreign
income. In a subsequent amendment to their
petition, the Steiners also challenged Utah’s state
tax credit system. They asked the Commission to
make a determination that only the portion of
Steiner, LLC’s income that is apportioned to Utah
should be included in taxable income for Utah

3

Some of the actions in this case were undertaken by
subdivisions of the Commission (specifically the Auditing
Division). Because the distinctions are not relevant, we refer to
all of the entities collectively as the Commission for the sake of
simplicity.

6a
purposes. 4 The Steiners also raised constitutional
challenges to Utah’s tax scheme in their petition.
¶11 The Commission conducted a formal hearing
on the Steiners’ petition and later issued a final
decision in which it upheld the original audit
determination and denied the Steiners’ new
apportionment claim. The Commission lacked
jurisdiction to hear the constitutional claims and
thus declined to address them.
¶12 After this adverse ruling, the Steiners paid the
assessed tax deficiency (plus statutory interest)
pursuant to Utah Code section 59-1-611. They then
appealed to the third district tax court for a “de novo”
review of the Commission’s determination. See UTAH
CODE § 59-1-601. In the tax court, both parties
moved for summary judgment. The tax court first
ruled that Utah’s tax treatment of income earned in
other states did not run afoul of the Dormant
Commerce Clause. Specifically, the court held that
the Dormant Commerce Clause did not require
apportionment of the Steiners’ income and that
Utah’s tax credit system satisfied the requirements
of that clause. The court went on to rule that the
Steiners were entitled to claim an equitable
adjustment for their foreign business income. The
court’s ruling in this regard, although ultimately
based on statutory grounds, was driven by
constitutional concerns. In particular, the tax court
4

Apportionment involves allocation of corporate business
income to Utah by comparing a corporation’s Utah-specific
presence with its overall payroll, property, sales, and so forth.
UTAH CODE § 59-7-311. Only the proportion of income
attributable to Utah is then taxed by Utah.

7a
believed that the Dormant Foreign Commerce Clause
mandated that Utah allow foreign business income
to be deducted. The tax court thus remanded the
case to the Commission so it could apply the
equitable adjustment to the Steiners’ income. Both
parties filed notices of appeal to this court pursuant
to Utah Code section 59-1-608.
II
¶13 The Commerce Clause grants Congress the
authority to regulate interstate commerce. U.S.
CONST. art. I, § 8, cl. 3. “By negative implication,” the
United States Supreme Court has held that “this
provision also limits the states’ authority in this
realm.” DIRECTV v. Utah State Tax Comm’n, 2015
UT 93, ¶ 13, 364 P.3d 1036. “So even if Congress has
not spoken on an issue of interstate commerce, states
are prevented from encroaching on Congress’s
authority — hence the term ‘dormant’ or ‘negative’
Commerce Clause.” Id. We must decide how to apply
this negative implication to the Utah Tax Code.
¶14 This case presents three distinct questions for
our resolution: (1) whether the Dormant Commerce
Clause requires Utah to apportion a residency-based
income tax instead of simply granting a credit for
taxes paid to other states; (2) whether the Dormant
Foreign Commerce Clause requires Utah to allow a
deduction for income earned in foreign countries; and
(3) whether Utah’s “equitable adjustment” statute,
Utah Code section 59-10-115(2), mandates a
deduction for foreign income.
¶15 We answer each of these questions in the
negative, explaining our reasoning below. But before

8a
diving into the specifics, we lay out some background
on our general jurisprudential approach to dormant
commerce issues.
A
¶16 Decades ago the United States Supreme Court
likened its case law under the Dormant Commerce
Clause to a “quagmire.” Nw. States Portland Cement
Co. v. Minnesota, 358 U.S. 450, 458 (1959). That was
an apt metaphor at the time. It seems even more so
today.
¶17 The Supreme Court’s body of dormant
commerce jurisprudence has multiplied several-fold
in the decades since the Portland Cement case. But
“[n]ot much has changed . . . , except perhaps to add
more room for controversy and confusion and little in
the way of precise guides to the States in the exercise
of their indispensable power of taxation.” DIRECTV,
2015 UT 93, ¶ 44 (citation and internal quotation
marks omitted). This is unfortunate. The lower
courts are operating largely in the dark in this
important field of constitutional law. “Yet we must of
course decide the cases that come before us, mindful
of our role as a lower court to follow controlling
precedent from the U.S. Supreme Court.” Id.
¶18 In carrying out our duty, however, “we are
reluctant to extend dormant Commerce Clause
precedent in new directions not yet endorsed” by the
Supreme Court. Id. ¶ 45. Because the high court’s
rulings in this area have proceeded on an ad hoc
basis lacking “any clear, overarching theory,” we
have noted the difficulty of the task of a lower court
in attempting to “anticipate expansions of the law

9a
into new territory.” Id. And with this in mind, we
have warned of the perils of a lower court reading tea
leaves in this field.
¶19 We have acknowledged, of course, the Supreme
Court’s prerogative to place limits on the
“longstanding police powers of state and local
governments to regulate business.” Id. ¶ 46. But in
light of the ad hoc nature of that court’s precedents,
we have warned that “it should be the U.S. Supreme
Court” that leads the way in charting new territory
in this field. Id.
¶20 We follow this same approach here. We will, of
course, faithfully apply controlling precedent. But we
decline to extend that precedent into new territory —
even in ways that might seem logical in other
jurisprudential realms. We do that not out of any
disrespect for the United States Supreme Court, but
in our best attempt at judicial humility in a
constitutional field marked more by haphazard
policy judgments than any unifying legal theory. In
such a field it would seem presumptuous to make our
own guess about the next move the high court might
make as it extends its precedent. And we will thus
leave it to that court to mark the next extension in
this field.
B
¶21 Like many states, Utah taxes its residents on
all of their income, regardless of where it is earned.
But Utah also grants its residents credits for taxes
they have already paid to other states. This ensures
that Utah residents’ income is not subject to taxation
by both Utah and another state.

10a
¶22 The Steiners nevertheless contend that this
taxation scheme violates the Dormant Commerce
Clause because it taxes a disproportionate share of
the income they earned outside of Utah. They are
mistaken. We hold that Utah’s provision of credits
for income taxes already paid to other states satisfies
the dormant commerce requirements set forth in
controlling precedent.5
¶23 The seminal case in this area is Complete Auto
Transit, Inc. v. Brady, 430 U.S. 274 (1977). Complete
Auto is the origin of the four-part test used to assess
state taxes for compliance with the Dormant
Commerce Clause. But the Complete Auto framework
was altered by the Supreme Court’s more recent
decision in Comptroller of the Treasury of Maryland
v. Wynne, 135 S. Ct. 1787 (2015). In light of the
complexity of the case law in this area, we first
outline the evolution of Dormant Commerce Clause
jurisprudence prior to Wynne. We next explain how
Wynne changed the governing framework. Finally,
we apply Wynne to conclude that Utah’s tax scheme
is constitutional.
1
¶24 The modern framework for evaluating the
validity of state taxes under the Dormant Commerce
Clause has its origins in Complete Auto, 430 U.S.
274. In that case the high court overruled the

5

The tax court granted summary judgment in favor of the
Commission on this issue. We review summary judgment
decisions for correctness, granting no deference to the lower
court’s legal conclusions. Salt Lake Cty. v. Holliday Water Co.,
2010 UT 45, ¶ 14, 234 P.3d 1105.

11a
previously governing analytical approach established
in Freeman v. Hewit, 329 U.S. 249 (1946), and
Spector Motor Service v. O’Connor, 340 U.S. 602
(1951). Those cases established what was known as
the “Spector Rule” — that “a tax on the ‘privilege’ of
engaging in an activity in the State may not be
applied to an activity that is part of interstate
commerce.” Complete Auto, 430 U.S. at 278. The
Complete Auto Court discarded the Spector Rule on
the ground that it represented a “triumph of
formalism over substance.” Id. at 281.
¶25 Apart from its expressed dissatisfaction with
the formalist nature of the Spector Rule, the
Complete Auto Court offered very little in the way of
an analytical explanation of its basis for a new legal
framework in this field. Instead the Court just made
brief note of four claims that the taxpayer had not
made in that case. Id. at 287. The Court stated,
almost in passing, “that no claim is made that the
activity is not sufficiently connected to the State to
justify a tax, or that the tax is not fairly related to
benefits provided the taxpayer, or that the tax
discriminates against interstate commerce, or that
the tax is not fairly apportioned.” Id.
¶26 This offhand statement was eventually
elevated into a “test.” See D.H. Holmes Co. v.
McNamara, 486 U.S. 24, 30 (1988). To pass Dormant
Commerce Clause scrutiny under this “test,” a state
tax must: (1) apply to an activity with a substantial
nexus to the state, (2) be fairly apportioned, (3) not
discriminate against interstate commerce, and (4) be
fairly related to the services the state provides. Id.
Only the fair apportionment prong is at issue in this
appeal.

12a
¶27 The Supreme Court has further subdivided the
fair apportionment prong into two parts — internal
consistency and external consistency. Container
Corp. of Am. v. Franchise Tax Bd., 463 U.S. 159, 169
(1983). Internal consistency requires an analysis of
the inherent characteristics of the state tax system.
Under this analysis we assume that every state uses
Utah’s tax system, and assess whether, in this
hypothetical
world,
there
is
systematic
discrimination against interstate commerce. Wynne,
135 S. Ct. at 1801-02. External consistency, on the
other hand, requires that state taxes “reflect a
reasonable sense of how income is generated.”
Container Corp., 463 U.S. at 169. To evaluate this
question, a court must assess “whether the State has
taxed only that portion of the revenues from the
interstate activity which reasonably reflects the instate component of the activity being taxed.”
Goldberg v. Sweet, 488 U.S. 252, 262 (1989). This
essentially requires states to apportion income, and
tax only that part of the income attributable to instate activity.
¶28 Prior to Wynne there was considerable
uncertainty regarding the continued vitality of both
of these two components. See, e.g., Okla. Tax Comm’n
v. Jefferson Lines, Inc., 514 U.S. 175, 196 (1995)
(declining to require external consistency of sales
taxes for sake of “simplicity”); Walter Hellerstein, Is
“Internal Consistency” Dead?: Reflections on an
Evolving Commerce Clause Restraint on State
Taxation, 61 TAX. L. REV. 1, 26 (2007). Despite this
confusion, neither test has been expressly overruled
by the Supreme Court. With this in mind, the
Steiners assert that Utah’s tax scheme, as applied to

13a
them, must satisfy both the internal and external
consistency tests. If the tax fails to do this, in their
view, it does not survive the Dormant Commerce
Clause challenge.
¶29 To see why this assertion is mistaken, we have
to take a detailed look at the Wynne decision.
2
¶30 Wynne was a challenge brought by individual
taxpayers against Maryland’s tax statutes. The
Wynnes sought two important extensions to the
Supreme Court’s then-existing Dormant Commerce
Clause jurisprudence. First, they wanted the Court
to apply the clause to an individual (rather than a
corporation) for the first time. Second, they wanted
the Court to apply the clause to a residency-based
income tax — also for the first time.
¶31 Like the Steiners, the taxpayers in Wynne were
shareholders of an S corporation. Wynne, 135 S. Ct.
at 1793. The Wynnes were residents of Maryland. Id.
At the time of that case, Maryland imposed two
levels of state taxation — first, a state income tax,
which Maryland levied at a graduated rate; and
second, a county income tax, which varied based on
geography but was levied at a flat rate. Id. at 1792.
Despite the differing nomenclature, both taxes were
collected directly by the state of Maryland. Id.
Maryland allowed taxpayers to claim a credit for
taxes paid to other states, but only against the
“state” tax — not the “county” tax. Id. Maryland
residents were thus subject to double taxation on
their income earned in other states. Income was
taxed by the other state via that state’s taxation

14a
regime and Maryland via its flat rate county tax.
Maryland also taxed the income of nonresidents. Id.
Nonresidents paid the state income tax on all income
they earned within Maryland. Id. They also had to
pay a “special nonresident tax” instead of the county
tax. Id. This tax was equivalent to the lowest county
income tax rate. Id. The Wynnes claimed that this
system violated the Dormant Commerce Clause.
¶32 The Supreme Court agreed. As a threshold
matter the Court noted that “it is hard to see why
the dormant Commerce Clause should treat
individuals less favorably than corporations.” Id. at
1797. It thus concluded, with little analysis, that
individuals are also protected by the Dormant
Commerce Clause — even though the Court had
previously never explicitly held as much. 6 The
Wynnes, as shareholders of an S corporation,
accordingly fell within the ambit its protection.
¶33 The Court then went on to assess the
substance of the Maryland tax. But in doing so, it
sailed past the four-part Complete Auto test and
6

The Wynne case is a departure from the Court’s previous
position that an individual’s residence in a state subjected him,
in full, to that state’s taxation regime. Indeed, as the principal
dissent noted, “the sheer volume and consistency of [the
Court’s] precedent confirms . . . the degree to which this Court
has — until now — endorsed the well-established principle . . .
that a State may tax its residents’ worldwide income, without
restriction arising from the source-based taxes imposed by
other States and regardless of whether the State also chooses to
impose source-based taxes of its own.” Comptroller of the
Treasury of Md. v. Wynne, 135 S. Ct. 1787, 1818 (2015)
(Ginsburg, J., dissenting) (citation and internal quotation
marks omitted).

15a
assessed the Maryland tax only on internal
consistency grounds. Although the Court noted that
the Maryland Court of Appeals applied the full
Complete Auto test, id. at 1793, it did not endorse or
apply the full test anywhere in its opinion. Nor did it
state that it was simply unnecessary to apply the
remaining prongs because one of the prongs was
dispositive. Instead, it at least implicitly treated
internal consistency as a standalone constitutional
test. The continuing vitality of the Complete Auto
test is thus in serious doubt.7
¶34 Wynne also introduced uncertainty into the fair
apportionment prong. As discussed above, supra
¶ 27, the fair apportionment requirement consists of
two subparts — internal consistency and external
consistency. The Wynne Court first concluded that
Maryland’s tax failed the internal consistency test.
The Court imagined a simplified world in which
every state had the same taxation system as
Maryland. Id. at 1803. The Court then
[a]ssume[d] further that two taxpayers, April
and Bob, both live in State A, but that April
earns her income in State A whereas Bob
earns his income in State B. In this
circumstance, Bob will pay more income tax
than April solely because he earns income
interstate. Specifically, April will have to pay a
1.25% tax only once, to State A. But Bob will
have to pay a 1.25% tax twice: once to State A,
7

We flag this point without conclusively resolving it. We
need not decide whether Wynne dispensed with Complete Auto
because only the fair apportionment prong is at issue in this
case.

16a
where he resides, and once to State B, where
he earns the income.
Id. at 1803-04. Based on this hypothetical, the Court
determined that the Maryland tax systematically
discriminated against interstate commerce and thus
failed the internal consistency test. Id. at 1803. And
in light of this failure, the Court held that
Maryland’s tax failed to survive the Dormant
Commerce Clause challenge. Id.8
¶35 So far so good. Because Maryland’s tax failed
the internal consistency test, the Supreme Court
need not have reached the external consistency test
since a failure on either prong would have been
determinative. But the Court went on to propose a
potential
solution
to
Maryland’s
problem.
Significantly, the Court’s proposed solution is one
that would fail the external consistency test.
¶36 The Wynne Court suggested that Maryland
could fix the problem with its tax code by eliminating
the special nonresident tax, but continuing to tax all
of its residents’ income regardless of source. Id. at
1806. Yet this solution would fail the external
consistency requirement. The proposed system would
allow Maryland to levy the county tax on 100 percent
of its residents’ income generated outside of
Maryland. Maryland would apportion none of this
income to other states. Crucially, it would not even
have to grant a credit for taxes paid to other states (as
8

This despite the fact that the Court had upheld internally
inconsistent state taxes before. See, e.g., Am. Trucking Ass’ns v.
Mich. Pub. Serv. Comm’n, 545 U.S. 429, 437 (2005); Shaffer v.
Carter, 252 U.S. 37, 57 (1920). So much for consistency.

17a
long as it didn’t tax nonresidents).9 This “would seem
to squarely violate the external consistency test,”
which requires states to apportion income such that
it “reflect[s] a reasonable sense of how income is
generated.” Dormant Commerce Clause — Personal
Income Taxation — Comptroller of the Treasury of
Maryland v. Wynne, 129 HARV. L. REV. 181, 186-87
(2015) (internal quotation marks and emphasis
omitted). This tax system does not even come close to
“slicing [the] taxable pie among [the] States in which
the taxpayer’s activities contributed to taxable
income.” Jefferson Lines, 514 U.S. at 186. Maryland
would be entitled to tax the out of state “slice” simply
because the taxpayer resided in Maryland. But
slicing the tax pie is the quintessential point of
external consistency.
¶37 The Wynne Court thus went out of its way to
endorse a tax regime violative of the external
consistency test. Whatever life external consistency
might have left, it is highly unlikely that it continues
to apply in the context of an individual taxpayer’s
challenge to a state’s taxation system.10

9

As long as Maryland taxes only residents, the tax system is
internally consistent. If every state taxed based only on
residency (and not based on the source of the income), there
would be no discrimination against interstate commerce. A
person living in State A would pay only State A taxes, and a
person living in State B would pay only State B taxes. There
would be no differing tax burden based on the interstate nature
of the income.
10

Although we are unaware of any judicial opinions reaching
this precise conclusion, there is significant scholarly
commentary along these lines. See, e.g., Mackenzie Catherine
Schott, Comment, Inconsistency with the Internal Consistency

18a
¶38 To summarize, Wynne struck down Maryland’s
tax system solely on the basis of internal consistency.
The Court did not apply the Complete Auto test. And
it strongly implied that tax systems that fail external
consistency would nonetheless pass constitutional
muster.
¶39 The task that remains, then, is to assess
Utah’s tax scheme under the guidelines laid out in
Wynne.
3
¶40 We can distill several principles from Wynne
that bear on the Steiners’ first claim: (1) As
shareholders of an S corporation, the Steiners are
entitled to bring a Dormant Commerce Clause
challenge; (2) Utah’s tax regime must satisfy the
internal consistency test; and (3) Utah’s tax regime
need not satisfy the external consistency test. The
Steiners’ challenge will rise and fall, then, on a
showing of internal inconsistency in Utah’s tax code.
¶41 We uphold the constitutionality of the Utah tax
scheme at issue under these principles. Because
Utah’s tax system is internally consistent, we hold

Test, 77 LA. L. REV. 947 (2017) (arguing that Wynne established
internal consistency as a standalone constitutional test);
Edward A. Zelinsky, The Enigma of Wynne, 7 WM. & MARY
BUS. L. REV. 797, 809-10 (2016) (noting that Wynne “can be read
as presaging a future formal repudiation of the external
consistency test”); Dormant Commerce Clause — Personal
Income Taxation — Comptroller of the Treasury of Maryland v.
Wynne, 129 HARV. L. REV. 181, 188 (2015) (asserting that
Wynne demonstrates that the Supreme Court is “hesitant to
apply the [external consistency] test”).

19a
that the Steiners’ Dormant
challenge fails on the merits.

Commerce

Clause

¶42 For the years in question, Utah taxed its
residents’ state taxable income at a rate of 5 percent.
UTAH CODE § 59-10-104 (2013). Utah residents who
paid income taxes in other states could take a credit
against their Utah taxes in the amount of taxes they
paid to other states, up to the amount that they
would have paid under Utah’s tax rate. Id. § 59-101003. Nonresidents were also taxed at the same rate
of 5 percent, but only on their income earned in
Utah. Id. § 59-10-103(1)(w), -104(2), -116.
¶43 This arrangement satisfies Wynne’s internal
consistency test. If every state adopted the same tax
system as Utah, there would be no discrimination
against interstate commerce. April and Bob (our
hypothetical taxpayers) — who are both residents of
State A — pay the same tax even though April earns
her income in State A and Bob earns his in State B.
April will pay a 5 percent tax to State A on her
income because she resides there. Bob will pay a 5
percent tax to State A because he resides there and a
5 percent tax to State B because he earns income
there, but he will receive a credit in State A for the 5
percent tax paid to State B. Like April, he will be
taxed only once on his income. Bob does not shoulder
a higher tax burden even though he earns his income
in interstate commerce.11 This conclusion is bolstered
11

It is true that some states have a 0 percent income tax, and
no credit against Utah taxes is thus available for income earned
in those states (because no taxes are paid to those states). But
this is immaterial to the analysis. Internal consistency analyzes
only the effects of a state’s own tax system. The fact that a

20a
by the Wynne majority’s statement that “Maryland
could cure the problem with its current system by
granting a credit for taxes paid to other States.” 135
S. Ct. at 1806. This is exactly what Utah does.
¶44 Utah’s tax code thus satisfies the internal
consistency test. In Wynne, the Supreme Court
declined to require anything else of Maryland’s tax.
We accordingly apply Wynne and conclude that a
state tax levied against individuals need satisfy only
the internal consistency test to pass Dormant
Commerce Clause scrutiny. 12 It would be an
extension of Wynne to require that these taxes also
satisfy external consistency. If the Supreme Court
wishes to mandate such an extension, it is of course
free to do so. But we will not do so here.
C
¶45 The Steiners also assert a challenge to Utah’s
tax code under the Dormant Foreign Commerce
Clause.13 They contend that Utah’s failure to grant a
given state’s system might generate odd results because of its
interaction with the systems of other states is irrelevant. See
Okla. Tax Comm’n v. Jefferson Lines, Inc., 514 U.S. 175, 185
(1995).
12

As discussed previously, only the fair apportionment prong
of the Complete Auto test is at issue before us. So although a
fair reading of Wynne is that it may have discarded that test
entirely, we need not decide the issue. It is enough for our
purposes to conclude that after Wynne, “fair apportionment”
means the same as “internal consistency” in this context.
13

The Dormant Foreign Commerce Clause is analogous to the
Dormant Commerce Clause. But whereas the latter is derived
by negative implication from the Commerce Clause, the former
finds its footing (or lack thereof) in the Foreign Commerce
Clause.

21a
credit for taxes already paid to foreign countries
impermissibly discriminates against international
commerce. The tax court agreed and allowed the
Steiners to deduct their foreign income under the
equitable adjustment statute so as to avoid what it
viewed as an otherwise unconstitutional result. We
reverse. There is no Supreme Court case in which
that Court has struck down a state tax on the foreign
income of an individual or an S corporation. We
decline to break new ground here — if the Dormant
Foreign Commerce Clause is going to be extended to
individuals “it should be the United States Supreme
Court that makes that decision.” DIRECTV v. Utah
State Tax Comm’n, 2015 UT 93, ¶ 46, 364 P.3d 1036.
The protections of the Dormant Foreign Commerce
Clause have been extended only to corporations. And
even if the clause did apply to the Steiners, the
requirements are met here. Accordingly, we hold
that Utah’s tax system does not run afoul of the
Dormant Foreign Commerce Clause.14
1
¶46 No Supreme Court case considering the
Dormant Foreign Commerce Clause has involved an
individual taxpayer (or S corporation shareholder).
They have all involved C 15 corporations. 16 The
14

We review the tax court’s grant of summary judgment for
correctness. Salt Lake Cty. v. Holliday Water Co., 2010 UT 45,
¶ 14, 234 P.3d 1105.
15

C corporations file corporate tax returns and pay federal
and state corporate-level taxes on the entity’s business and nonbusiness income. 26 U.S.C. § 11; UTAH CODE § 59-7-101 et seq.
16

See Barclays Bank PLC v. Franchise Tax Bd. Of Cal., 512
U.S. 298 (1994); Itel Containers Int’l Corp. v. Huddleston, 507

22a
Supreme Court has never indicated that a state —
taxing an individual based on his residency in that
state — could run afoul of the Constitution by failing
to grant a tax credit against taxes levied by foreign
countries. Under the principles we articulated in
DIRECTV that alone is enough to end the inquiry.
We could conclude otherwise only by transplanting
Wynne into the Court’s foreign commerce clause
jurisprudence. But we find no established basis for
Wynne to be extended into this area.
¶47 As discussed above, Wynne established — for
the first time — that a state tax levied against an
individual who resided in that state was subject to
the Dormant Commerce Clause. Supra ¶ 32. Justice
Alito, writing for the Court, noted that “it is hard to
see why the dormant Commerce Clause should treat
individuals less favorably than corporations.”
Comptroller of the Treasury of Md. v. Wynne, 135 S.
Ct. 1787, 1797 (2015). Crucially, however, the Court
applied a different doctrinal framework to the
individual taxpayers in Wynne than the one
previously applied to corporations.
¶48 Wynne adopted the internal consistency test as
a freestanding constitutional requirement. Id. at
1803. In its previous cases, however, the Court
applied this test as one part of the broader Complete
Auto framework. See, e.g., D.H. Holmes Co. v.
U.S. 60 (1993); Kraft Gen. Foods, Inc. v. Iowa Dep’t of Revenue
& Fin, 505 U.S. 71 (1992); Wardair Canada, Inc. v. Fla. Dep’t of
Revenue, 477 U.S. 1 (1986); Container Corp. of Am. v. Franchise
Tax Bd., 463 U.S. 159 (1983); Mobil Oil Corp. v. Comm’r of
Taxes of Vt., 445 U.S. 425 (1980); Japan Line, Ltd. v. Cty. Of
Los Angeles, 441 U.S. 434 (1979).

23a
McNamara, 486 U.S. 24, 30 (1988). And what’s more,
the failure of a tax to pass the internal consistency
test was not previously fatal. See, e.g., Am. Trucking
Ass’ns v. Mich. Pub. Serv. Comm’n, 545 U.S. 429, 437
(2005); Shaffer v. Carter, 252 U.S. 37, 57 (1920).
Thus despite the Court’s insistence that individuals
are entitled to be treated no “less favorably” than
corporations under the Dormant Commerce Clause,
it is clear that they can be treated differently.
Crucial distinctions between individuals and
corporations continue to exist as a doctrinal matter.
Logically, then, individuals and corporations may
also be subjected to differing analytical frameworks
under the Dormant Foreign Commerce Clause. But
the Supreme Court has provided no guidance
whatsoever to lower courts regarding how to treat
individuals in the context of foreign commerce. So
even if we were inclined to conclude that state taxes
of individual residents are subject to Dormant
Foreign Commerce Clause scrutiny, we would be
completely at sea. We would have no idea what test
to apply or how to apply it.17
¶49 “Our hesitance to extend the law of dormant
commerce is reinforced by a practical problem: The
extension advocated by the [Steiners] would open a
17

This difficulty is exacerbated by the fact that the governing
Dormant Foreign Commerce Clause framework is not identical
to the domestic framework. See, e.g., Itel Containers Int’l Corp.,
507 U.S. at 73 (noting that Complete Auto framework is the
“domestic commerce clause test”). We thus do not know (1) how
the assessment of an individual tax would work as a practical
matter; or (2) how it would work as a doctrinal matter. We see
no basis for stumbling through these nesting layers of
unknowns until the Supreme Court lights the way.

24a
can of worms.” DIRECTV, 2015 UT 93, ¶ 46. This
practical problem is amply illustrated by the
Steiners’ own briefing. In seeking to extend Wynne to
foreign commerce, the Steiners attempt to apply the
internal consistency test. As discussed, this test
requires analyzing a hypothetical world in which all
jurisdictions have the challenged tax scheme. We
then would assess if interstate commerce suffers
from systematic discrimination in this alternate
world. But this test is quite impossible to apply in an
international setting. Wynne’s internal consistency
analysis contemplated only state-level taxes within a
uniform federal system. And the international
income earned by the Steiners is subject to multiple
levels of foreign taxation — local, subnational, and
national. It would make no sense to universalize
Utah’s tax system to conduct a Wynne analysis —
Utah is a single, subnational taxing jurisdiction.
There is no proper basis to compare the effect of its
tax system with the effect of those of foreign
jurisdictions encompassing multiple levels of
taxation.
¶50 In light of this uncertainty, we decline to
“veer[] from a principle of interstate and
international taxation repeatedly acknowledged by
[the Supreme Court]: A nation or State ‘may tax all
the income of its residents, even income earned
outside the taxing jurisdiction.” Wynne, 135 S. Ct. at
1813 (Ginsburg, J. dissenting) (quoting Okla. Tax
Comm’n v. Chickasaw Nation, 515 U.S. 450, 462-63
(1995)). Although the Supreme Court has chosen to
depart from this settled rule in the context of
domestic taxation, it has given no indication of its
intent to extend that approach to state taxation of

25a
foreign commerce. “And since a move in that
direction would require subjective line-drawing that
would take us far afield of the Court’s current
approach, we doubt that it will.” DIRECTV, 2015 UT
93, ¶ 46. We reverse the tax court and hold that
Utah may tax the entirety of the Steiners’ foreign
income based on their residency in the state.
2
¶51 Although the Supreme Court has never
articulated a test for a residence-based individual
income tax, Utah’s tax is consistent with the broader
dormant foreign commerce principles the Court has
hinted at. First, Utah’s tax code interacts with the
federal tax code in a manner that leads to
evenhanded treatment of foreign commerce. Second,
we can infer that Congress approves of Utah’s tax
system and has thus authorized it.
¶52 The “foreign commerce clause cannot be
interpreted to demand that a State refrain from
taxing any business transaction that is also
potentially subject to taxation by a foreign
sovereign.” Itel Containers Int’l Corp. v. Huddleston,
507 U.S. 60, 74 (1993). Indeed, “absolute consistency,
even among taxing authorities whose basic approach
to the task is quite similar, may just be too much to
ask.” Container Corp. of Am. v. Franchise Tax Bd.,
463 U.S. 159, 192 (1983). There is always some risk
of double taxation in the international realm.
Mitigation of this risk, however, would require
complex negotiation with foreign nations —
negotiations that the State of Utah is legally and
practically ill-equipped to tackle.

26a
¶53 This is a further indication of the need for
leeway for states in the exercise of their taxing
authority in the shadow of the Foreign Commerce
Clause. See id. at 192 n. 31 (noting that “California
. . . is in no position to negotiate with foreign
governments,” and thus that the risk of double
taxation was no reason to invalidate the tax). Utah’s
residency based individual tax may possibly subject
the Steiners to a double tax on some of their income.
But this alone may not be a basis for invalidating the
Utah tax.
¶54 This conclusion is strengthened by the way in
which Utah’s tax system interacts with the federal
system. The United States government has entered
into a multitude of complex tax treaties with foreign
nations. The federal government, consistent with
these treaties, provides residents with a credit for
foreign taxes already paid on foreign-sourced income.
26 U.S.C. §§ 901-09. The rules governing these tax
credits are understandably extremely complex.
Crucially, these treaties and rules often allow a
credit against federal tax for both foreign national
and subnational taxes. Richard D. Pomp and Michael
J. McIntyre, GATT, Barclays, and Double Taxation,
8 STATE TAX NOTES 977 (1995). If the State of Utah
were to also grant a foreign tax credit, foreignsourced income would be granted the windfall of a
double tax credit. This would systematically favor
foreign commerce over domestic commerce. And we
see no basis for the conclusion that the Dormant
Foreign Commerce Clause requires such a result.18
18

It is true that the Supreme Court has previously stated that
there is “no authority . . . for the principle that discrimination

27a
¶55 Congress seems to agree. Despite the fact that
dozens of states decline to grant a credit for foreign
taxes, Congress has never acted to prohibit the
practice or to preempt these laws in any way.
Normally we would hesitate to infer anything from
Congressional inaction. But the Supreme Court has
specifically stated that Congress may “passively
indicate that certain state practices” do not violate
the Dormant Foreign Commerce Clause. Barclays
Bank PLC v. Franchise Tax Bd. of Cal., 512 U.S. 298,
323 (1994). 19 “[I]f a state tax merely has foreign
resonances, but does not implicate foreign affairs, we
cannot infer, absent some explicit directive from
Congress” that the states must conform their taxes
to federal practice. Container Corp. of Am., 463 U.S.
at 194 (internal alterations, quotation marks, and
citations omitted).

against foreign commerce can be justified if the benefit to
domestic subsidiaries might happen to be offset by other taxes
imposed not by [the State], but by . . . the Federal Government.”
Kraft Gen. Foods, 505 U.S. at 81. But this was before the Court
articulated the principle of passive congressional approval. The
interaction between federal and state statutes is important for
assessing if Congress has sub silentio approved a state law.
19

The Court made this statement in the context of evaluating
whether a tax impaired the ability of the federal government to
operate uniformly. This is ostensibly one of two additional
prongs (along with the Complete Auto factors) in evaluating
taxes under the Dormant Foreign Commerce Clause. But it has
broader applicability. If Congress may “passively” approve of
state laws for one part of the test, there is no reason its passive
approval should not be attributed to the law as a whole. After
all, it seems implausible that Congress would intend to signal
approval for just one part of a judicially invented six-part test.

28a
¶56 The lack of an explicit Congressional directive
may thus come close to tacit approval of these state
laws. And the Court has repeatedly stated that
Congress can authorize state action that would
otherwise violate the Dormant Commerce Clause.
See, e.g., Camps Newfound/Owatonna, Inc. v. Town
of Harrison, 520 U.S. 564, 572 & n.8 (1997); Maine v.
Taylor, 477 U.S. 131, 138 (1986). Regardless of any
judicially jury-rigged multipart tests, then, this
Congressional approval immunizes Utah’s tax code
from judicial scrutiny under the Dormant Foreign
Commerce Clause.
D
¶57 Lastly, the Steiners argue that the equitable
adjustment statute in Utah’s tax code allows them to
deduct their foreign income from their Utah tax base
as a statutory matter. Applying principles of
constitutional avoidance, the tax court agreed and
read the relevant section to allow the deduction. We
reverse. We hold that the equitable adjustment
statute does not apply in this instance.
¶58 As in all cases of statutory interpretation, we
begin with the text. See Olsen v. Eagle Mountain
City, 2011 UT 10, ¶ 9, 248 P.3d 465 (affirming “our
commitment to interpreting statutes according to the
‘plain meaning of their text”). 20 The equitable
20

We have previously suggested that statutes granting tax
credits “must be narrowly construed against the taxpayer.”
Ivory Homes, Ltd. v. Utah State Tax Comm’n, 2011 UT 54,
1110, 266 P.3d 751. Yet we have also said that we “construe tax
imposition statutes liberally in favor of the taxpayer.” Id. ¶ 31.
This dichotomy presents a difficult line-drawing problem, as it
is not always apparent whether a given statutory provision is

29a
adjustment statute reads, in relevant part: “[t]he
commission shall allow an adjustment to adjusted
gross income of a resident or nonresident individual
if the resident or nonresident individual would
otherwise . . . suffer a double tax detriment under
this part.” UTAH CODE § 59-10-115(2)(b). The
question presented concerns the meaning of the
phrase “double tax detriment under this part.”
¶59 The Steiners contend that if any of their
income is taxed twice, then they have suffered a
“double tax detriment.” Thus, they argue, the fact
that their foreign-source income is taxed by both
Utah and a foreign country entitles them to take
advantage of the statute and adjust the income they
report to Utah.
¶60 It’s true that the Steiners have suffered a
“double tax detriment” by being taxed by both Utah
and a foreign country. But the statute doesn’t call for
adjustments for any double tax detriment—it calls
for an adjustment only if the taxpayer suffers “a
better viewed as a matter of a tax “credit,” on one hand, or as
an element of the basis for the threshold imposition of the tax,
on the other. The logic of the distinction is likewise a bit
slippery. We have endorsed the notion of narrow construction of
tax credits on the ground that such are a matter of legislative
“grace.” See id. ¶ 10. But there is a sense in which all tax
provisions are a matter of grace, as the taxing authority could
always go further in imposing a greater tax.
We flag this problem as a matter deserving greater attention
in a future case. We need not resolve it here, however, as it has
always been clear that the first order of business in a matter of
statutory interpretation is to credit the ordinary meaning of the
words enacted into law by the legislature. And here we conclude
that such meaning cuts squarely against the Steiners.

30a
double tax detriment under this part.” Id. (emphasis
added). The words “under this part” are crucial. And
“under this part” necessarily refers to the part of the
tax code to which section 115 belongs — part 1 of
title 59, chapter 10, entitled “Determination and
Reporting of Tax Liability and Information” of the
State’s Individual Income Tax Act. See id. §§ 59-10101-137. The clear import of that phrase is that an
equitable adjustment is available only if the Utah
tax code itself imposes double taxation.21
¶61 This is fatal to the Steiners’ position. Utah has
not taxed their foreign income twice — it has only
taxed it once. The second tax detriment they suffered
was at the hands of a foreign sovereign. They cannot
therefore take advantage of the equitable adjustment
statute. We reverse the tax court and hold that the
equitable adjustment statute applies only when Utah
itself imposes double taxation.
III
¶62 “The principle of dormant commerce . . . is not
rooted in a clause, but in a negative implication of
one.” DIRECTV v. Utah State Tax Comm’n, 2015 UT
93, ¶ 45, 364 P.3d 1036. For that reason there is a
“dearth of any textual or historical foundation for a
court to look to” in this field. Id. The problem is
compounded when we search for principled guidance
in precedent from the United States Supreme Court,
21

The tax court’s invocation of the constitutional avoidance
canon was thus erroneous. That canon is applicable only where
the statute is “genuinely susceptible to two constructions.” Utah
Dep’t of Transp. v. Carlson, 2014 UT 24, ¶ 24, 332 P.3d 900
(quoting Almendarez-Torres v. United States, 523 U.S. 224, 238
(1998)). Here the statute is unambiguous.

31a
as that Court itself has long acknowledged that its
case law in this field is a bit of a “quagmire,” Nw.
States Portland Cement Co. v. Minnesota, 358 U.S.
450, 458 (1959), and its recent decisions “add more
room for controversy and confusion and little in the
way of precise guides to the States in the exercise of
their indispensable power of taxation.” DIRECTV,
2015 UT 93, ¶ 44 (citation and internal quotation
marks omitted).
¶63 This is the legal backdrop for our decision in
this case. The Steiners have raised some plausible
arguments and identified some potential policy
concerns with the tax regime enacted by the State of
Utah. But in the absence of any clear anchors in text,
history, or precedent, we are left with little more
than a request that we second-guess the policy
judgment of our state legislature — based on
speculation about how a rather haphazard body of
case law may ultimately play out in the future.
¶64 We do not see this as our role.22 We uphold the
constitutionality of the Utah tax provisions at issue
on the ground that the Steiners have identified no
basis in controlling precedent for striking them
down. We also hold that they have fallen short in
22

See DIRECTV v. Utah State Tax Comm’n, 2015 UT 93, ¶ 46,
364 P.3d 1036 (noting our “hesitance” to “limit[] the
longstanding police powers of state and local governments to
regulate business”); see also Comptroller of Treasury of Md. v.
Wynne, 135 S. Ct. 1787, 1810 (2015) (Scalia, J., dissenting)
(suggesting that the dormant commerce “doctrine does not call
upon us to perform a conventional judicial function,” but
“instead requires us to balance the needs of commerce against
the needs of state governments” — ”a task for legislators, not
judges”).

32a
their attempt to identify a statutory basis for their
challenge to these provisions.

33a
APPENDIX B
_________
IN THE THIRD JUDICIAL DISTRICT COURT
SALT LAKE COUNTY, STATE OF UTAH
TAX COURT DECISION
_________
ROBERT C. STEINER & WENDY STEINER-REED,
Petitioners/Plaintiffs,
v.
UTAH STATE TAX COMMISSION,
Respondent/Defendant.
_________
RULING AND ORDER ON CROSS-MOTIONS FOR
SUMMARY JUDGMENT
Case No. 170901774
Judge Noel S. Hyde
_________
Filed 01/30/2018
_________
The matter before the court is a challenge to Utah’s
tax structure as it relates to the business income of
shareholders of S corporations. At issue is the tax
structure’s impact on foreign and interstate
commerce. Petitioners have made both facial and asapplied challenges to Utah’s tax structure. 1 The
1

“[W]e will find the statute unconstitutional only if
petitioners can demonstrate that the statute is either facially
unconstitutional or unconstitutional as applied. In making this
determination, we will resolve any reasonable doubt in favor of
constitutionality.” Elk Lodges No. 719 (Ogden) & No. 2021

34a
success of those challenges turns on whether the
current statutory structure is capable of a
constitutional interpretation. If a reasonable
constitutional reading of the statutes is available,
the facial challenge will fail. However, even if the tax
structure is facially sufficient, if its application to
Petitioners in this case fails to meet constitutional
standards, then the as-applied challenge may
succeed. To determine whether a reasonable
constitutional interpretation exists, the court must
evaluate controlling Utah and federal constitutional
precedent as it relates to the circumstances of this
case.
FACTS
The Steiners were Utah residents during the years
that the income tax was assessed. Pet. Mot. at 4 ¶ 1.
Their income came from Steiner, LLC, a Nevada
subchapter-S Corporation. Id. at ¶ 2; Id. Ex. A at 3.
The business income from Steiner, LLC passes
through to its shareholders, and the Steiners are
shareholders of Steiner, LLC. Id. at ¶ 2, 3. About 2%
of the corporation’s income is generated from
activities within Utah; about 98% comes from its
interstate
activities
and
foreign
business
subsidiaries. Id. at 11. When the Steiners filed their
2011, 2012, and 2013 taxes, they claimed the
available state tax credit on income earned and
taxed in other states. Id. at 8 ¶ 12. The Steiners also
claimed equitable adjustments, under Utah Code
Ann. § 59-10-115, and removed all foreign business
income from their Utah taxable income, even though
(Moab) v. Dep’t of Alcoholic Beverage Control, 905 P.2d 1189,
1202 (Utah 1995) (citation omitted).

35a
that income was reported on their federal return. Id.,
Ex. A at 2. Utah does not provide a tax credit for
income earned in foreign jurisdictions or income
earned in states without an income tax. Id. at 8 ¶ 12,
13. The Utah State Tax Commission (“the
Commission”), denied the equitable adjustments and
assessed a deficiency on the business income in the
Steiners’ taxes for 2011, 2012, and 2013, totaling
approximately $1.3 million. Id. at 8-9, ¶ 14, 15.
The
Steiners’
appealed
the
deficiency
determination to the Commission. Id. at 9-10, ¶ 1619. The Commission ruled against Petitioners,
holding that the Steiners did not qualify for an
adjustment under Utah Code Ann. § 59-10-115, and
noting that the Commission lacked authority to
determine the constitutional questions. Id. at 10,
¶ 19-20. Petitioners appealed and asked to have the
case decided in Tax Court. Both parties have moved
for summary judgment and agree that the case
presents no disputed issues of material fact. Id. at 3;
Resp. Mot. at 1.
DISCUSSION
States have the power to tax the income of their
residents under the Due Process clause of the
Fourteenth Amendment to the U.S. Constitution.
However, the power to tax all the income of the
state’s residents is limited by the Commerce Clause.
See, Comptroller of Treasure of Maryland v. Wynne,
135 S.Ct. 1787, 1798-99 (2015). The United States
Constitution grants Congress power “To regulate
Commerce with foreign Nations, and among the
several States, and with the Indian Tribes.” U.S.
Const. Art. I, § 8, cl. 3. “Although the Clause is

36a
framed as a positive grant of power to Congress, `[the
Supreme Court has] consistently held this language
to contain a further, negative command, known as
the dormant Commerce Clause, prohibiting certain
state taxation even when Congress has failed to
legislate on the subject.’” Wynne, 135 S.Ct. at 1794
(quoting Okla. Tax Comm’n v. Jefferson Lines, Inc.,
514 U.S. 175, 179 (1995)). The Utah Supreme Court
has acknowledged that “even if Congress has not
spoken on an issue of interstate commerce, states are
prevented
from
encroaching
on
Congress’s
authority—hence the term ‘dormant’ or ‘negative’
Commerce Clause.” DIRECTV v. Utah State Tax
Comm’n, 2015 UT 93, ¶ 13. Notwithstanding
references to interstate commerce in many of the
Commerce Clause decisions of the Supreme Court,
the standards and limitations that apply to state
taxation of interstate commerce also apply, under the
foreign Commerce Clause of the U.S. Constitution, to
state taxation of foreign commerce. In Kraft General
Foods, Inc. v. Iowa Dept. of Revenue and Finance,
505 U.S. 71 (1992), the Supreme Court held that
foreign commerce is due even greater protection from
discrimination than interstate commerce. Id. at 79.
Commerce Clause challenges are subject to strict
scrutiny when the challenged laws “directly
discriminate against interstate commerce—by ‘facial’
discrimination or discrimination that is apparent in
its effect and discriminatory purpose.” DIRECTV,
2015 UT at ¶ 14 (citing Or. Waste Sys. Inc. v. Dep’t of
Envtl. Quality, 511 U.S. 93, 99 (1994)). A tax
structure that discriminates based on the geographic
location of the business or its activities is subject to
strict scrutiny. Id, at ¶¶ 23-26. A law to which strict

37a
scrutiny applies may only be upheld if “it serves a
‘legitimate local purpose’ that ‘could not be served as
well by available nondiscriminatory means.’” Id, at
¶ 14 (citing Maine v. Taylor, 477 U.S. 131, 139
(1986)). Alternatively, a balancing test may apply
when the tax law’s discriminatory effect is merely
incidental, and the law may be invalidated only if the
burden on interstate commerce outweighs the local
benefit. Id., at ¶ 15 (citing Pike v. Bruce Church, Inc.,
397 U.S. 137, 142 (1970)). However, when a tax law
affects foreign commerce, a court may find a
discriminatory violation based only on a burden on
foreign commerce, regardless of any finding of a local
benefit. Id. The court will evaluate the foreign
commerce issues in the present case under a strict
scrutiny analysis to ensure that foreign commerce
receives the heightened level of protection required
in Kraft.
Because the present case involves taxation of the
shareholders of an S corporation, it is also significant
to note that in Wynne, the U.S. Supreme Court
determined that Commerce Clause protections
afforded to C corporations also apply to S
corporations and their shareholders. See Wynne, 135
S.Ct. at 1792, 1797-98. In Wynne, the Court held that
Maryland’s personal income tax structure violated
the Commerce Clause because it denied shareholders
of an S corporation a credit for corporate income
taxes paid in other states. Id. at 1792-93. The Court
ruled that the interstate business income was
impermissibly taxed twice because it was subject to
two states’ tax schemes. Id. at 1792. Respondent’s
argument that applying this holding from Wynne to
the present case would be an unwarranted extension

38a
of Wynne is not persuasive. Likewise, that the
Supreme Court may not have specifically
contemplated the consequences of its ruling in
Wynne when applied to the circumstances now before
this court does not allow the court to disregard the
Court’s ruling. Based upon Wynne, constitutional
limitations on Utah’s taxation of corporate business
income apply to taxation of S corporation income.
Respondent provides no persuasive authority for the
argument that Wynne must be restricted to questions
involving interstate taxation and that the case has
no application to issues involving foreign commerce.
The U.S. Supreme Court has ruled that to survive
a Commerce Clause challenge, a tax must meet the
following four-prong test: “the tax is applied to an
activity with a substantial nexus with the taxing
State, is fairly apportioned, does not discriminate
against interstate commerce, and is fairly related to
the services provided by the State.” Complete Auto
Transit, Inc. v. Brady, 430 U.S. 274, 279 (1977).
Petitioners argue that, as currently interpreted and
applied by Respondent, Utah’s tax structure violates
the second and third prongs of this Complete Auto
test. Each prong will be addressed in turn.2
Discrimination
States may not “impose a tax which discriminates
against interstate commerce either by providing
direct commercial advantage to local business, or by
2

Because Petitioners do not argue that the first and fourth
prongs of the Complete Auto test are violated in this case, those
prongs will not be addressed further in this opinion. Pet. Mot. at
16; Resp. Mot. at 17; Resp. Mot. at 25.

39a
subjecting interstate commerce to the burden of
multiple taxation.” DIRECTV, 2015 UT at ¶ 22
(citing Wynne, 135 S.Ct. 1787, at 1794 (quoting Nw.
States Portland Cement Co. v. Minnesota, 358 U.S.
450, 458 (1959))) (quotations omitted). Consistently,
the Utah Supreme Court has held that “the dormant
Commerce
Clause’s
strict
prohibition
on
discrimination is implicated by laws treating
different interests differently because one set of
interests has a distinct geographic connection to the
home state and others lack it.” DIRECTV, 2015 UT
at ¶ 34.
The U.S. Supreme Court has held tax structures
unconstitutional when those structures “had the
potential to result in the discriminatory double
taxation of income earned out of state.” Wynne, 135
S.Ct. at 1801-02. The Court explained, “[a]lthough
we did not use the term in those cases, we held that
those schemes could be cured by taxes that satisfy
what we have subsequently labeled the ‘internal
consistency’ test.” Id.3

3

Initially, the Court in Container Corp. of America v.
Franchise Tax Board, 463 U.S. 159, 169 (1983), stated, “The
first...component of fairness in an apportionment formula is
what might be called internal consistency—that is the formula
must be such that, if applied by every jurisdiction, it would
result in no more than all of the unitary business’s income
being taxed.” Later in Oklahoma Tax Comm’n v. Jefferson
Lines, Inc., 514 U.S. 175, 185 (1995), internal consistency was
still used as part of the fair apportionment prong, but the Court
was starting to look for discrimination under internal
consistency. The test’s purpose was to “see whether [a tax’s]
identical application...would place interstate commerce at a
disadvantage as compared with commerce intrastate.” Id.

40a
To determine internal consistency, a hypothetical
test is applied, which assumes that every jurisdiction
has the same tax structure. The purpose of this test
is to “`look[] to the structure of the tax at issue to see
whether its identical application by every State in
the Union would place interstate commerce at a
disadvantage
as
compared
with
commerce
intrastate.’ Id. at 1812, (quoting Jefferson Lines, 514
U.S. at 185). If applying the tax as structured would
result in discrimination against interstate or foreign
commerce, the tax is not internally consistent.
The issue presently before this court involves the
taxation of business income earned out-of-state by an
S corporation whose shareholders are resident in
Utah. Utah taxes business income at a rate of 5%.
Pet. Mot. at 18; See also Resp. Mot. at 24 (citing Utah
Code Ann. §§ 59-10104(1), -103(w)(i), -103(1)(a), 114). Utah also allows residents who earn income
out-of-state to take a credit for taxes paid in other
states. However, Utah does not allow residents to
take a credit for taxes paid in foreign jurisdictions.
Utah’s tax structure also provides for equitable
adjustments. The equitable adjustment provisions
will be addressed separately in this decision and are
not considered here. Assuming that every
jurisdiction, including all other states and foreign
jurisdictions, has a tax structure identical to Utah’s
current structure, the question is whether this tax
structure discriminates against interstate or foreign
commerce.
Hypothetically, the court considers the following
three circumstances: Business A is resident in Utah
and earns income in Utah; Business B is resident in
Utah, but earns income from Colorado; and Business

41a
C is also resident in Utah, but earns income from
Germany. Under Utah’s current tax structure as it
relates to business taxes and available business tax
credits, Business A pays tax on the Utah business
income at the current rate of 5%. Business B’s
Colorado business income is taxed in Utah at 5%.
However, because it is assumed that Colorado also
taxes business income earned there at 5%, Business
B can claim the tax credit for the taxes paid on
income in Colorado. Thus, Business B does not pay
taxes on the Colorado income in Utah and the
Colorado income is only taxed once. Business C’s
German business income is taxed in Utah at 5%.
Germany is presumed, hypothetically, to also tax the
income earned there at 5%. However, Utah’s tax
structure does not permit Business C to take a tax
credit for the 5% tax paid in Germany on the
business income also taxed in Utah. Therefore,
Business C, hypothetically, pays a double tax on the
business income earned in Germany.
This hypothetical analysis shows that Utah’s tax
structure is internally consistent as applied to
interstate business taxation, which conclusion is
acknowledged by both Petitioners and Respondent in
this case. However, Utah’s tax structure is not
internally consistent as applied to taxation of foreign
business income. Utah does not provide a credit or
other adjustment for foreign taxes paid, so the
business income is subject to double taxation, once
by the foreign jurisdiction and a second time by
Utah. The court rules that, absent consideration of
equitable adjustments, this discrimination violates
the foreign Commerce Clause.

42a
Respondent argues unpersuasively that Utah need
not make any accommodation for foreign business
income because Congress has already spoken on the
issue, and through a federal tax credit, found in IRC
§§ 901-909, and various tax treaties has addressed
the problem of double taxation of foreign business
income. However, a tax credit for federal taxes does
not provide relief from state taxes.4 In addition, none
of the cases cited by Respondent supporting this
argument involves a state attempting to tax foreign
business income. Havana Elec. Ry., Light & Power
Co. v. Comm’r, 34 B.T.A. 782 (1936); Riggs Nat.
Corp. & Subsidiaries v. C.I.R., 163 F.3d 1363 (D.C.
Cir. 1999); Procter & Gamble Co. v. United States,
2010 WL 2925099 (T.C. 2010). These cases actually
support Petitioners’ argument that a federal tax
credit provides relief on federal taxes only. The
existence of a federal foreign tax credit, therefore,
does not resolve the discrimination that may result
when states tax foreign business income.
Similarly, federal tax treaties have only addressed
how the federal government’s tax structure interacts
with foreign entities and their citizens. In making
the argument that tax treaties have addressed and
resolved the issues relating to double taxation of
foreign business income by states, Respondent relies
primarily on the United States Model Income Tax
Convention from November 2006. Resp. Supp. Auth.
1. Article 23 of the model treaty provides relief from
double taxation, but is only applicable at the federal
4

Utah Code Ann. § 59-10-110 (2017) states that taxpayers
may not apply federal tax credits when calculating their income
for state taxes.

43a
level. See Resp. Supp. Auth. 2, at 8, 74. Article 24
does focus on non-discrimination relating to foreign
nationals residing in the U.S., and is applicable to
the states. Id. at 2, 78-79. However, the model treaty
nowhere addresses or authorizes the double taxation
by the states of foreign business income. This lack of
direction is not a statement from Congress on the
propriety of any state tax structure relating to
foreign commerce. The dormant foreign Commerce
Clause has application in precisely this situation.
The absence of a provision in the model treaty
requiring states to grant credits for foreign taxes
paid does not open the door for states to tax foreign
business income in such a way that results in double
taxation. Respondent’s argument that the foreign
Commerce Clause does not apply is rejected.
Apportionment
A tax must be fairly apportioned “to ensure that
each State taxes only its fair share of an interstate
transaction.” Oklahoma Tax Comm’n v. Jefferson
Lines, Inc., 514 U.S. 175, 184 (1995) (quotations and
citation omitted). To determine whether a state tax
is fairly apportioned, the court applies what is
referred to as an external consistency test. “External
consistency ... looks ... to the economic justification
for the State’s claim upon the value taxed, to
discover whether a State’s tax reaches beyond that
portion of value that is fairly attributable to
economic activity within the taxing State.” Id. at 185.
However, external consistency must work in
harmony with the principle that states can tax based
on residency; the external consistency test has not
been applied to invalidate an income tax based on
residency.

44a
To the extent that Petitioners’ argument is a
request to either directly or implicitly invalidate
Utah’s residence-based business income tax, the
request is denied. Even though cases applying the
external consistency test and requiring some formula
of apportionment focus on the activity or transaction
taxed, no cases have been presented to this court
which compel the conclusion that a resident of a
state may avoid taxation by the state of any amount
of business income simply because the business was
not conducted in the state. The taxable activity or
transaction that is the focus of a residence-based
income tax is residency, itself.
There is “a well-established principle of interstate
and international taxation—namely, that a
jurisdiction... may tax all the income of its residents,
even income earned outside the taxing jurisdiction.”
Oklahoma Tax Comm’n v. Chickasaw Nation, 515
U.S. 450, 462-463 (1995). The Court has explained,
“[that] the receipt of income by a resident of the
territory of a taxing sovereignty is a taxable event is
universally recognized. Domicil itself affords a basis
for such taxation.” New York ex rel. Cohn v. Graves,
300 U.S. 308, 312-313 (1937). Residency, itself,
provides a valid and sufficient connection to the state
for business income tax purposes, and a residencebased business income tax may be imposed so long as
the tax avoids the pitfalls of discrimination and
double taxation.
Petitioners’ arguments that the tax structure is
improper because it may result in a tax liability
greater than the total business income generated in
the State of Utah or in an effective tax rate that is
disproportionately high in relation to the business

45a
income generated in the state do not persuade the
court that the tax structure is externally
inconsistent. Utah may tax the business income of its
residents, but the tax may not result in double
taxation when viewed together with taxes imposed
by other states or foreign entities. Thus, if the
business income earned in other states or foreign
jurisdictions is not taxed at all in those jurisdictions,
Utah may impose its residence-based tax on such
income. Even if the effective tax rate when compared
to business income generated in Utah is
disproportionately high, the business income of
Petitioners is still only taxed once, and the tax
structure would still comply with Commerce Clause
requirements. The court rules in this case that
Utah’s current business tax structure does not
violate the apportionment prong of the Complete
Auto test.
Equitable Adjustments
Utah’s tax statute includes an equitable
adjustment provision. Utah Code Ann. § 59-10115
requires the Commission to approve equitable
adjustments if the taxpayer “would otherwise suffer
a double tax detriment.” Petitioners have argued
that they should have been able to make the
equitable adjustment to their income to eliminate
earnings from states that do not impose an income
tax, and to avoid a double tax detriment related to
their foreign business earnings. Respondent opposes
this interpretation of the statute. Regarding the
adjustment to eliminate income earned in states that
do not impose an income tax, the court is not
persuaded by Petitioners’ argument. Because such
income has not been the subject of any income tax, it

46a
is properly subject to the state’s residence-based tax.
Also, because there is no double taxation, equitable
adjustments are not required.
With respect to foreign business earnings, the court
reviews the equitable adjustment provisions to
determine whether such provisions can be
interpreted to meet constitutional requirements. As
it does so, the court is mindful of the principles of
statutory interpretation which require the court to
“construe a challenged statute to avoid constitutional
infirmities wherever possible.” Elk Lodges No. 719
(Ogden) & No. 2021 (Moab) v. Dep’t of Alcoholic
Beverage Control, 905 P.2d 1189, 1202 (Utah 1995)
(citing Society of Separationists, Inc. v. Whitehead,
870 P.2d 916, 920 (Utah 1993)). Courts generally
avoid analyzing constitutional issues if it can be
avoided by statutory interpretation. See Utah Dept.
of Transp. V. Carlson, 2014 UT 24, ¶ 24. When it is
unavoidable, the courts will “prefer a constitutional
reading of a statute over an unconstitutional
interpretation thereof.” Elk Lodges, 905 P.2d at 1202
(citing Chris & Dick’s Lumber & Hardware v. Tax
Comm’n of Utah, 791 P.2d 511, 516 (Utah 1990)).
Petitioners argue that the plain reading of the
statute provides a way for taxpayers to make
equitable adjustments to their income. The statute
reads:
2) The commission shall allow an adjustment
to adjusted gross income of a resident or
nonresident individual if the resident or
nonresident individual would otherwise: . . .

47a
(b) suffer a double tax detriment under this
part.
Utah Code § 59-10-115 (West 2017); see also, Pet.
Mot. at 32, (quoting Utah Code § 59-10-115 (West
2008)).
In response, Respondent argues first, that the
equitable adjustment provision has never been
interpreted to apply to double taxation on foreign
business income. See Pet. Mot. at 33; Pet. Mot., Ex. A
at 9-10 (citing Utah State Tax Commission Findings
of Fact, Conclusions of Law, and Final Decision,
Appeal No. 08-0590 (August 5, 2010); Utah State Tax
Commission Order, Appeal No. 05-1787 (September
5, 2006); Utah State Tax Commission Initial Hearing
Order, Appeal No. 12-915 (April 15, 2014); Utah
State Tax Commission Findings of Fact, Conclusions
of Law, and Final Decision, Appeal No. 14-373
(November 11, 2015); and Utah State Tax
Commission Initial Hearing Order, Appeal No. 151332 (June 27, 2016)). However, the fact that the
equitable adjustment provision has not yet been
interpreted in a constitutionally permissible way
does not preclude its being so interpreted now.
The courts do not “defer to an agency’s statutory
interpretation unless the legislature has explicitly, or
implicitly, granted the agency discretion to interpret
the statutory language at issue.” Belnorth Petroleum
Corp. v. State Tax Com ‘n of Utah, 845 P.2d 266, 268
(Utah Ct. App 1993); see also LPI Services v. McGee,
2009 UT 41, ¶ 7. Because the Utah Legislature has
directed, in Utah Code Ann. § 59-1-610 (2017), that
no deference is to be given to conclusions of law made
by the Commission, and also based upon the

48a
Commission’s own confirmation that it lacks
authority
to
address
or
determine
the
constitutionality of Utah’s tax structure, this court is
not bound by past agency interpretations of the
equitable adjustment provisions of Utah’s tax
statutes.
Respondent next argues that the Legislature
intended the equitable adjustments provision to
cover only double taxes imposed by Utah. “It is a
long-held position of the Commission that the Utah
Legislature only intended to address double taxation
by the State of Utah ... and that the Legislature did
not intend to address foreign income or income from
states that assess no tax.” Resp. Mem. Opp’n at 33;
see also Pet. Mot, Ex. A at 9-10. Questions of
legislative intent are not given substantial weight by
the court if the suggested interpretation would result
in an unconstitutional application of the statute, and
an at-least-equally-plausible interpretation permits a
constitutional
application.
The
Commission’s
interpretation finds no support in a plain-language
reading of the statute. The equitable adjustment
provision of the tax code is included in that part
which authorizes Utah to tax its residents’ income.
The statute is directed, generally, to concern about
double taxation, and is not restricted to
circumstances where the State of Utah imposes a tax
twice. The language of the statute is equally
applicable to circumstances where the State of Utah
imposes a tax on income that has already been taxed
by another jurisdiction. Taxation by the State of
Utah of business income that has already been taxed
in another jurisdiction meets squarely the definition
of double taxation, and there is no plausible

49a
argument that the taxation in question is not being
imposed by the State of Utah.
Finally, Respondent argues that if the Legislature
wanted this statute to be read to address double
foreign taxation, it would have expressly referred to
foreign business income. Resp. Mem. Opp’n at 33.
The court is not persuaded. Kraft requires that
foreign commerce receive at least the same
protection as interstate commerce. If the statute
were drafted to expressly preclude adjustments for
foreign income, as Respondent argues, then the
statute would be unconstitutional on its face.
Because the court must construe the statute to be
constitutional, if possible, and because Respondent’s
suggested
interpretation
would
be
facially
unconstitutional, the court must interpret the
equitable adjustment provisions to permit an
adjustment for foreign business income taxed in the
foreign jurisdiction. The court is not in a position to
rewrite any provision of Utah’s tax code. The court
can only interpret the provisions that are presently
subject to challenge and determine whether they
meet constitutional standards on their face or as
applied.
CONCLUSION
In summary, the tests for internal and external
consistency have been met by Utah’s tax structure
for local and interstate business income, and the
Commission is affirmed on the facial and as-applied
challenges regarding such business income.
However, in applying the standards set forth in
Kraft, the court must be even more vigilant to ensure
that Utah’s tax structure does not impose an

50a
improper burden on foreign commerce. Therefore,
because Utah’s tax structure as currently applied to
the taxation of foreign business income passed
through to the shareholder of an S corporation may
result in double taxation of that income, such double
taxation of foreign business income is a
discriminatory burden on foreign commerce which
violates the foreign Commerce Clause of the U.S.
Constitution.
The absence of a credit or other adjustment for
foreign business income already taxed in a foreign
jurisdiction cannot pass muster under the internal
consistency test. By denying the equitable
adjustment claimed by Petitioners regarding foreign
business income already taxed in a foreign
jurisdiction, the tax structure as currently applied is
invalid based on that discrimination, even though
the tax structure is externally consistent because it
is a residence-based tax. Therefore, the portion of the
Commission’s decision which relates to the
determination of Petitioners’ tax liability relating to
foreign business income is vacated, and the case is
remanded with instruction to apply the equitable
adjustment provision so as to avoid double taxation
of Petitioners’ foreign business income. Any effort to
address a potential change in the tax statutes to
permit a credit for taxes paid on business income
generated in foreign jurisdictions is left to the
consideration of the Legislature.
ORDER
The Tax Commission’s decision is affirmed as to
the interstate business income claim, and reversed

51a
and remanded with respect to the foreign business
income claim.
Dated this 30th day of January, 2018.
/s/ Noel S. Hyde
Noel S. Hyde
District Court Judge

52a
APPENDIX C
_________
BEFORE THE UTAH STATE TAX COMMISSION
_________
ROBERT C. STEINER AND WENDY STEINER-REED,
Petitioners,
v.
AUDITING DIVISION OF THE UTAH STATE TAX
COMMISSION,
Respondent.
_________
FINDINGS OF FACT, CONCLUSIONS OF LAW,
AND FINAL DECISION
Appeal No. 15-235
Tax Type: Income Tax
Tax Years: 2011, 2012 and 2013
Judge: Phan
_________
Presiding:
Michael Cragun, Commissioner
Robert Pero, Commissioner
Rebecca Rockwell, Commissioner
Jane Phan, Administrative Law Judge
Appearances:
For Petitioner:
Peter Billings, Attorney at Law
William Adams, Attorney at Law

53a
Nora Brunelle, Attorney at Law
Robert Steiner
For Respondent:
John McCarrey, Assistant Attorney General
Mark Wainwright, Assistant Attorney General
Angie Hillas, Income Tax Audit Manager
Kim Ferrell, Corporate Franchise Tax Audit
Manager
_________
STATEMENT OF THE CASE
This matter came before the Utah State Tax
Commission for a Formal Hearing on May 10, 2016,
in accordance with Utah Code §59-1-501 and §63G-4201 et seq. Based upon the evidence and testimony
presented at the hearing, the Tax Commission
hereby makes its:
FINDINGS OF FACT
1. Petitioners (“Taxpayers”) timely filed an
appeal of Utah individual income tax audit
deficiencies issued against them for tax years 2011,
2012 and 2013 and the matter proceeded to this
Formal Hearing.
2. The Notices of Deficiency and Audit Change
had been issued on January 12, 2015 for each year at
issue. 1 The amounts of audit deficiencies imposed
with interest calculated to the notice payment dates
are as follows:

1

Exhibit 1.

54a
Year

Audit Tax

Interest

2011

$377,585

$21,310.28

2012

$448,258

$16,382.91

2013

$407,875

$6,749.49

Year

Penalty

Total as of Notice Date2

2011

$0

$398,895.28

2012

$0

$464,640.91

2013

$0

$414,624.49

3. Although Respondent (“Division”) had made
some small changes in the audits which were in the
Taxpayer’s favor, the tax deficiency resulted from the
Division’s disallowance of the equitable adjustments
the Taxpayers had claimed for each tax year on their
Utah Resident Individual Income Tax Returns.
4. It was the equitable adjustments that were at
issue in this hearing. The equitable adjustments
were subtractions that the Taxpayers made from
their Utah taxable income, although they were
income amounts that the Taxpayers had included in
their federal adjusted gross income. The equitable
adjustments were claimed on Line 8 (Subtractions
from Income) of their Utah Individual Income Tax
Returns3 and were as follows:

2

Interest continues to accrue on any unpaid balance.

3

Exhibits 2-4.

55a
2011

$7,372,280

2012

$9,066,691

2013

$8,209,333

5. With their 2011 Utah Individual Income Tax
Return, the Taxpayers provided an attachment to
Form TC-40A4 in which they explained the equitable
adjustment as follows:
Adjustments have been made to exclude the
foreign source business taxable income
included in the Taxpayers’ federal taxable
income from the Taxpayers’ Utah taxable
income. Utah is prohibited by the Commerce
Clause in Article I, Section 8 of the United
States Constitution from imposing a tax on the
Taxpayers’ foreign source business taxable
income since doing so would discriminate
against foreign commerce. Utah law unfairly
attempts to tax foreign source income
differently from the taxation of domestic
source income taxed in other states. The
Taxpayers receive a credit for income taxes
paid to another state; however, since no such
credit is allowed for foreign tax imposed on
foreign source income, the Utah Tax on the
Taxpayers’ foreign source income (before
foreign income tax) is discriminatory and
therefore unconstitutional.

4

Exhibit 2, pg. 000019.

56a
A similar statement was provided
Taxpayers’ returns for 2012 and 2013.5

with

the

6. The Taxpayers were Utah resident individuals
for tax years 2011 - 2013.
7. Robert Steiner (when referred to individually,
Mr. Steiner will be referred to as “Taxpayer”) is a
shareholder directly of Steiner, LLC, which is a
Nevada limited liability company that has elected to
be classified as an S corporation for federal and Utah
tax purposes. Taxpayer is also one of several income
beneficiaries of the G.A. Steiner Trust. The G.A.
Steiner Trust is the majority shareholder (87%) of
Steiner, LLC. The G.A. Steiner Trust for the benefit
of the Taxpayer has elected to be a Qualified
Subchapter S Trust (“QSST”) for federal tax
purposes. The Taxpayer is deemed to be the
shareholder of Steiner, LLC with respect to the
shares owned by the Robert Steiner portion of the
G.A. Steiner Trust. As the shareholder of an S
corporation, the Taxpayer included his allocable
share of the income of Steiner, LLC on his federal
income tax returns and they were part of his federal
adjusted gross income for the years in question.
8. Steiner, LLC is a holding company that is the
sole shareholder of Alsco, Inc., a Nevada corporation
(“ALSCO”). ALSCO has elected to be classified as a
Qualified S Subsidiary (“QSSUB”) for federal and
Utah tax purposes. Thus, for tax purposes, ALSCO is
a disregarded entity and its business is considered to
be the business of Steiner, LLC. All of Steiner, LLC’s
business income is from ALSCO. ALSCO is engaged
5

Exhibits 3 & 4.

57a
in the textile rental business both directly and
through wholly owned subsidiaries in the United
States and several foreign countries. 6 All of the
ALSCO subsidiaries that are engaged in business in
the United States have elected to be classified as
QSSUBs. Substantially all of the income of the
textile rental business, both domestic and foreign, is
“flow through income” that is allocated to the
shareholders of Steiner, LLC for federal and Utah
tax purposes, and the shareholders are responsible
for the payments of the federal and Utah income tax
liability on the Steiner, LLC income.
9. Roughly 2% or less of Steiner, LLC’s business
income was apportioned to Utah during the years in
question and roughly 98% to other states and foreign
countries. ALSCO has facilities in 30 states and
thirteen or fourteen countries. It has 17,300
employees worldwide and 430 employees in Utah.
ALSCO’s general office is located in Utah.
APPLICABLE LAW
A tax is imposed on the state taxable income of a
resident individual under Utah Code §59-10-104(1)7.
Utah Code §59-10-103(1)(w) defines “state taxable
income” as follows, in pertinent part:
(i) Subject to Section 59-10-1404.5, for a
resident individual, means the resident

6
7

Exhibit 1.

The Commission cites to the 2012 version of the Utah Code
on provisions of substantive law, which is similar for all three
tax years at issue.

58a
individual’s adjusted gross income after
making the:
(A) additions and subtractions required by
Section 59-10-114; and
(B) adjustments required by Section 59-10115...
Utah Code §59-10-103(1)(a)(i) provides that
“adjusted gross income” for a resident individual “is
as defined in Section 62, Internal Revenue Code.”
During the audit years, 8 Utah Code §59-10-115
provided for an equitable adjustment in some limited
situations as follows:
(1) The commission shall allow an adjustment
to adjusted gross income of a resident or
nonresident individual if the resident or
nonresident individual would otherwise:
(a) receive a double tax benefit under this
part; or
8

After the audit period, effective beginning with the 2017 tax
year, this statute was revised to add an equitable adjustment
on foreign source taxable income for certain pass-through entity
taxpayers where the income is from heavy gauge metal tank
manufacturing. The new provision at Utah Code Subsection 5910-115(3)(a) (2017) provides: “For a pass-through entity
taxpayer generating taxable income primarily from
establishments classified in Code Section 3342, Metal Tank
(Heavy Gauge) Manufacturing, of the 2002 or 2007 North
American Industry Classification System of the Federal
Executive Office of the President, Office of Management and
Budget, an adjustment described in Subsection (2) includes net
foreign source taxable income generated from Metal Tank
(Heavy Gauge) Manufacturing establishments.”

59a
(b) suffer a double tax detriment under this
part.
(2) In accordance with Title 63G, Chapter 3,
Utah Administrative Rulemaking Act, the
commission may make rules to allow for
the adjustment to adjusted gross income
required by Subsection (1).
Utah Code §59-10-1003 provides for credit for taxes
paid to another state as follows:
(1) Except as provided in Subsection (2), a
claimant, estate, or trust may claim a
nonrefundable tax credit against the tax
otherwise due under this chapter equal to
the amount of the tax imposed:
(a) on that claimant, estate, or trust for the
taxable year;
(b) by another state of the United States,
the District of Columbia, or a possession
of the United States; and
(c) on income:
(i) derived from sources within that
other state of the United States,
District of Columbia, or possession of
the United States; and
(ii) if that income is also subject to tax
under this chapter.
(2) A tax credit under this section may only be
claimed by a:
(a) resident claimant;

60a
(b) resident estate; or
(c) resident trust.
(3) The application of the tax credit provided
under this section may not operate to
reduce the tax payable under this chapter
to an amount less than would have been
payable were the income from the other
state disregarded.
(4) The tax credit provided by this section shall
be computed and claimed in accordance
with rules prescribed by the commission.
Utah Code §59-1-1417 provides for burden of proof
and statutory construction as follows:
(1) In a proceeding before the commission, the
burden of proof is on the petitioner except
for determining the following . . .
(2) Regardless of whether a taxpayer has paid
or remitted a tax, fee, or charge, the
commission or a court considering a case
involving the tax, fee, or charge shall:
(a) construe a statute imposing the tax, fee,
or charge strictly in favor of the
taxpayer; and
(b) construe a statute providing an
exemption from or credit against the
tax, fee, or charge strictly against the
taxpayer.

61a
DISCUSSION
The relevant facts were not substantially in dispute
at this hearing. The issue is a question of law and
primarily the issues raised by the Taxpayers are
constitutional. As noted by the Taxpayers’
representative “the Taxpayers’ position is really
quite simple: Utah cannot constitutionally tax
business income attributable to activities outside of
Utah. And Section 59-10-115 can and must be
construed to avoid the unconstitutional result of the
Division’s position.” 9 The Taxpayers are Utah
residents for Utah individual income tax purposes
and are not contesting that the State of Utah may
tax their dividend and investment income, which
they refer to as nonbusiness or portfolio income.
Their contention is with the ALSCO business income
that passes through to the Taxpayers’ individual
returns and is included in their federal adjusted
gross income. They are arguing that it is
unconstitutional for the State of Utah to tax the
Taxpayers’ business income attributable to activities
outside of Utah, even though it is income included in
the Taxpayers’ federal adjusted gross income. The
Taxpayers argue at the hearing that the same
constitutional principles apply to not only the income
attributable to foreign countries, but also income
attributable to states with no income tax. 10 They
distinguish the states that tax income from states
9

Petitioners’ Pre-Hearing Reply Brief, pg. 3.

10

The Taxpayers had not taken the position regarding the
income attributable to states that do not assess tax on their
Utah returns for the audit years, so this position was not
reflected in the audit deficiency amounts.

62a
that do not because Utah does allow a credit for
individual income taxes paid to another state, so this
credit is available for states that assess tax.
Basically, the Taxpayers argue that most of the
ALSCO business income does not relate to Utah and
Utah should only be able to tax business income
attributable to Utah.
The Taxpayers point out that under Utah law, a
corporation that is domiciled in Utah that is taxed as
a C corporation, is subject to a Utah tax only on its
business income that is attributable to its business
activities in Utah.11 The Taxpayers represent that if
Steiner, LLC was taxed as a C corporation, most of
the income would be attributable to business
activities conducted outside of Utah.” The Taxpayers
represent that if their Steiner, LLC income was
taxed like a C corporation and only the income
attributable to Utah was subject to Utah tax, the tax
amount would be substantially less for each year.
They state for example, in tax year 2011 the tax on
the Steiner, LLC income attributable to the
Taxpayers under the Division’s position would be
$388,506 of Utah individual income tax, while if the

11

In Taxpayers’ Prehearing Brief, pg. 8, these differences
were stated as follows for each tax year: for 2011, of the
$10,783,466 which was the Taxpayers’ share of Steiner, LLC
Business Income, $10,551,190 was attributable to non-Utah
sources; for tax year 2012, of the $12,937,828 Taxpayers’ share,
$12,704,313 was attributable to non-Utah sources; and for
2013, of the $14,236,670 Taxpayers’ share, $14,018,578 was
attributable to non-Utah sources.

63a
tax was calculated like a C corporation, it would only
be $11,051.12
The Taxpayers cite to the recent United States
Supreme Court decision in Comptroller of Treasury
of Md. v. Wynne, 135 S.Ct. 1787 (US 2015), and
argue that it supports the position that “if a tax on a
C corporation violates the Commerce Clause, then
the same tax imposed on an individual also violates
the Commerce Clause.”13 Wynne was a case involving
individual income tax provisions in Maryland and a
Maryland resident individual who was the
shareholder in an S corporation that was engaged in
business in Maryland and other states. Maryland
allowed its residents to claim a credit for taxes paid
to other states against their Maryland “state”
individual income tax, but did not allow the credit
against what was called the “county tax.” Although
this second tax was referred to as the “county tax” it
also was collected by the state, but the tax rate was
based on the county in which the person resided. In
Wynne the Court notes the result of not allowing a
credit for taxes paid to other states against the
county tax was “that some of the income earned by
Maryland residents outside the State is taxed twice.
Maryland’s scheme creates an incentive for
taxpayers to opt for intrastate rather than interstate
economic activity.” The Court goes on to find, “We . . .

12

See Taxpayers’ Prehearing Brief, pg. 9. For tax year 2012,
this difference asserted by the Taxpayers was from $472,792 to
$11,821 and for tax year 2013, the difference was from $506,761
to $11,051.
13

Petitioners’ Pre-Hearing Reply Brief, pg. 2.

64a
hold that this feature of the State’s tax scheme
violates the Federal Constitution.” Id. at 1792.
The Taxpayers point out that in reaching its
decision in Wynne, the Court had stated, “We have
long held that States cannot subject corporate
income to tax schemes similar to Maryland’s, and we
see no reason why income earned by individuals
should be treated less favorably.” Id. at 1792. It is
the Taxpayers’ position that Wynne makes it clear
that taxes imposed by a state on resident individuals
are subject to the same constitutional restrictions as
taxes imposed on a corporation and that a state tax
on income taxable to a resident shareholder from
activities by the S corporation in other jurisdictions
is subject to the limitations imposed under the
Commerce Clause. 14 The Taxpayers argue that
Utah’s individual income tax as it pertains to the
Taxpayers, violates the Commerce Clause of the
United States Constitution under the four part test
set out in Complete Auto Transit, Inc. v. Brady, 430
U.S. 274 (1977). The Taxpayers also argue that the
Utah tax law as it pertains to the Taxpayers, violates
the Foreign Commerce Clause of the United States
Constitution based on the decisions in Container
Corporation of America v. Franchise Tax Board, 463
U.S. 159 (1983) and Kraft General Foods, Inc. v. Iowa
Dep’t of Revenue and Finance, 505 U.S. 71 (1992).
The Taxpayers argue that Utah Code Sec. 59-10115 is a safety valve to solve these asserted
constitutional flaws in the Utah Individual Income
Tax Act. The Taxpayers acknowledge that the
14

See Petitioners’ Pre-Hearing Brief, pg. 13.

65a
Division’s interpretation of Utah Code Sec. 59-10-115
does not allow for an equitable adjustment in this
matter because it is the Division’s position that the
equitable adjustment under Utah Code Sec. 59-10115 is limited to situations where income is taxed
twice by the State of Utah. However, the
representatives for the Taxpayers argue the
Taxpayers position to allow the equitable adjustment
based on a double tax detriment from a different
taxing jurisdiction is a plausible reading of the
statute and that all the Taxpayers need to do is show
that their alternative and constitutional reading is
plausible and if plausible, the Commission must
adopt it over the Division’s reading which they assert
is unconstitutional.15
It was the Division’s position that the Taxpayers
are asking that the Commission invalidate Utah
Code Secs. 59-10-104 and 59-10-103 which impose an
income tax on the state taxable income of Utah
resident individuals and specifically define “state
taxable income” to be the individual’s federal
“adjusted gross income.” It was not disputed in this
matter that the Taxpayers were Utah resident
individuals during the tax years at issue and the
income they are arguing that should be excluded
from Utah income tax was income that the
Taxpayers had included on their federal returns in
their federal adjusted gross income. The Division
argues that although an equitable adjustment is
provided under Utah Code Sec. 5910-115 to adjusted
15

The Taxpayers’ representatives cite to Elks Lodges No. 719
(Ogden) & No. 2021 (Moab) v. Dep’t of Alcoholic Beverage
Control, 905 P.2d 1189, 1202 (Utah 1995).

66a
gross income, it is only if the individual would
otherwise “suffer a double tax detriment under this
part (emphasis added).” The Division points out that
“this part” refers to Part 1 of Chapter 10, Individual
Income Tax Act. The Division indicates that the Tax
Commission has uniformly interpreted this provision
to limit the equitable adjustment to situations where
the individual would be taxed twice by the State of
Utah under Part 1 of the act, and did not allow the
adjustment in situations where the individual was
taxed only once by the State of Utah, but also taxed
by a foreign jurisdiction or by another state on the
same income. The Division cites to Utah State Tax
Commission Findings of Fact, Conclusions of Law
and Final Decision, Appeal No. 08-0590 (August 5,
2010);16 Utah State Tax Commission Order, Appeal
No. 05-1787 (September 5, 2006); Utah State Tax
Commission Initial Hearing Order, Appeal No. 12915 (April 15, 2014); Utah State Tax Commission
Findings of Fact, Conclusions of Law, and Final
Decision, Appeal No. 14-374 (November 11, 2015).17
16

The Petitioners in Appeal No. 08-0590 appealed the
Commission’s ruling to the Utah Third District Court, which
upheld the Tax Commission’s decision disallowing the equitable
adjustment for income that was subject to tax in Canada. See
XXXX v. Utah State Tax Comm’n, Case No. 100917302. The
District Court ruling was appealed to the Utah Supreme Court,
which sent the matter to the Utah Court of Appeals where it
was eventually settled. See XXXX v. Utah State Tax Comm ‘n,
Case No. 20120708 (Utah Ct. App).
17

See also Utah State Tax Commission Initial Hearing Order
Appeal No. 15-1332 (June 27, 2016). These and other decisions
issued by the Utah State Tax Commission are available for
review in a redacted format at tax.utah.gov/commissionoffice/decisions.

67a
The Division’s position is consistent with how the
Utah State Tax Commission has interpreted and
applied Utah Code Secs. 59-10-104, 59-10-103(1) and
59-10-115 in Utah for many years. Under Utah law,
apportionment factors do not apply to a Utah
resident individual for income tax purposes. Utah
Code Secs. 59-10-104 and 59-10-103(1) impose a tax
on a resident individual’s state taxable income which
is based on the individual’s federal “adjusted gross
income.” Utah law does provide an equitable
adjustment under Utah Code Sec. 59-10-115 to the
federal adjusted gross income if the resident
individual would receive a double tax detriment
under Part 1 of the Utah Individual Income Tax Act.
The Taxpayers’ argument that they should be
allowed to take an equitable adjustment on income
that was also subject to tax by foreign jurisdictions
has been specifically rejected by the Tax Commission
over the years in the decisions noted above. The Tax
Commission has been consistent in its application of
these provisions. Under Utah Code Sec. 59-1-1417,
the Commission must construe a statute providing
an exemption or credit strictly against the taxpayer
and the equitable adjustment is similar to an
exemption or credit. The Taxpayers expansion of the
equitable adjustment provided at Utah Code Sec. 5910-115 to their income is not a plausible
interpretation and without specific limitations would
have a substantial impact on Utah’s Individual
Income Tax Act.
In order to find that the Taxpayers are entitled to
take an equitable adjustment, the Tax Commission
would have to expand the equitable adjustment
beyond what the Utah Legislature has specifically

68a
allowed at Utah Code Sec. 59-10-115. 18 The Tax
Commission declines to do so, especially in light of
the fact that the Utah Legislature has recently
considered Utah Code Sec. 59-10-115 with respect to
foreign source income and revised that section in a
very limited and specific manner. Beginning with tax
year 2017, the Utah Legislature adopted Utah Code
Subsection 59-10-115(3) which enacts an equitable
adjustment for taxable income of a pass through
entity taxpayer in one specific industry, that being
the heavy gauge metal tank industry. Certainly the
Utah Legislature could have made this change more
broadly applicable but chose not to do so.
Additionally, if prior to this revision, Utah Code Sec.
5910-115 had been intended to be applied as broadly
as the Taxpayers are arguing at this hearing, the
provision allowing the adjustment for the metal tank
industry would not have been necessary because it
would already have been available for all industries
generally on the foreign source pass through income.
Ultimately the Division is correct on the point that
the Taxpayers’ are requesting relief that would first
require the Tax Commission to do something it lacks
jurisdiction to do, invalidate Utah individual income
tax provisions. The Utah Supreme Court has
previously held that the Utah State Tax Commission
lacks authority to determine the constitutionality of
18

See MacFarlane v. Utah State Tax Commission, 2006 UT
25, ¶19, “(While we recognize the general rule that statutes
granting credits must be strictly construed against the
taxpayer, the construction must not defeat the purpose of the
statute.)’ The best evidence of that intent is the plain language
of the statute.” (Citing Jensen v. Intermountain Health Care,
Inc., 679 P.2d 903, 906 (Utah 1984).

69a
Utah laws. See Nebeker v. Tax Comm’n, 2001 UT 74;
35 P.3d 180 (2001). Regardless, the Division points
out that the State of Utah’s individual income tax
statutes already comply with the Court’s decision in
Comptroller of Treasury of Maryland v. Wynne, 135
S.Ct. 1787 (2015), because Utah allowed the credit
for taxes paid to other states while Maryland did not
provide for such a credit. The Taxpayers’ arguments
based on the decision in Wynne go far beyond what
the Court actually held in that case. The Tax
Commission should decline to expand its
longstanding interpretation of Utah Code Sec. 59-10115 or invalidate other provisions of the Utah
Individual Income Tax Act based on the Taxpayers’
assertions regarding the application or effect of the
Court’s holding in Wynne.
CONCLUSIONS OF LAW
1. The Utah Individual Income Tax Act imposes
an income tax on the “state taxable income” of Utah
resident individuals. Utah Code Subsection 59-10104(1). “State taxable income” is specifically defined
as the individual’s federal adjusted gross income
subject to certain additions, subtractions and
adjustments. Utah Code Subsections 59-10-103(1)(a)
& (w). These provisions tax the resident individual
on income included in his or her federal adjusted
gross income whether it comes from sources outside
of Utah or sources from within the state. Utah law
does allow under Utah Code Sec. 59-10-1003 a credit
for taxes paid to other states and that has been
allowed in this matter.
2. The Utah Legislature has provided an
adjustment under Utah Code Sec. 59-10-115 to the

70a
federal adjusted gross income if the resident
individual suffers “a double tax detriment under this
part.” The Tax Commission consistently interpreted
this equitable adjustment to apply only to situations
where the individual would have been taxed twice on
the same income by the state of Utah under the Part
1 of the Individual Income Tax Act and has not
allowed this adjustment when the individual would
be taxed once by Utah and also by a different
government jurisdiction. See Utah State Tax
Commission Findings of Fact, Conclusions of Law
and Final Decision, Appeal No. 08-0590 (August 5,
2010); Utah State Tax Commission Order, Appeal
No. 05-1787 (September 5, 2006); Utah State Tax
Commission Initial Hearing Order, Appeal No. 12915 (April 15, 2014); Utah State Tax Commission
Findings of Fact, Conclusions of Law, and Final
Decision, Appeal No. 14-374 (November 11, 2015);
and Utah State Tax Commission Initial Hearing
Order Appeal No. 15-1332 (June 27, 2016). The
Taxpayers argue they should be allowed to take this
adjustment on income they included in their federal
adjusted gross income, but which they argue was
business income attributable to other states or
countries. The Taxpayers’ position is contrary to the
statutory provisions and the Commission’s consistent
application of these provisions. The Utah Legislature
has not expanded this adjustment generally to
income attributable to foreign sources or income from
states that do not assess an individual income tax.
3. The
Taxpayers
argument
that
their
interpretation of Utah Code Sec. 59-10-115 is
“plausible” and under Elks Lodges No. 719 (Ogden) &
No. 2021 (Moab) v. Dep’t of Alcoholic Beverage

71a
Control, 905 P.2d 1189, 1202 (Utah 1995) should be
upheld over the Division’s interpretation is
unpersuasive. The Taxpayers expansion of the
equitable adjustment provided at Utah Code Sec. 5910-115 to their income is not a plausible
interpretation and without specific limitations would
have a substantial impact on Utah’s Individual
Income Tax Act. The Utah Legislature has not
provided an equitable adjustment or a credit
applicable in this matter. In order to find for the
Taxpayers, the Tax Commission would have to
expand the credit beyond what the Utah Legislature
has allowed and should decline to do so, especially in
light of the fact that the Utah Legislature has
recently looked at the statute, made a limited
revision, but did not expand it in the manner the
Taxpayers are requesting.
4. The Taxpayers argue that the imposition of
Utah Individual Income Tax on business income they
attribute to sources outside of Utah violates the
Commerce Clause of the U.S. Constitution. The Utah
State Tax Commission lacks authority to invalidate
provisions of the Utah Individual Income Tax Act
based on the constitutionality of Utah laws. See
Nebeker v. Tax Comm’n, 2001 UT 74; 35 P.3d 180
(2001). Regardless, the Taxpayers’ arguments based
on the United States Supreme Court’s decision in
Comptroller of Treasury of Md. v. Wynne, 135 S.Ct.
1787 (US 2015) go far beyond what the Court
actually held in that case.

72a
After review of the facts and applicable law in this
matter, the Taxpayers’ appeal should be denied.
/s/ Jane Phan
Jane Phan
Administrative Law Judge

73a
DECISION AND ORDER
Based on the foregoing, the Tax Commission denies
the Taxpayers appeal pertaining to the individual
income tax audit deficiencies for tax years 2011, 2012
and 2013. It is so ordered.
DATED this 15 day of November, 2016.

/s/ John L. Valentine
John L. Valentine
Commission Chair

/s/ Michael J. Cragun
Michael J. Cragun
Commissioner

/s/ Robert P. Pero
Robert P. Pero
Commissioner

/s/ Rebecca L. Rockwell
Rebecca L. Rockwell
Commissioner

Notice of Appeal Rights and Payment
Requirement: Any balance due as a result of
this order must be paid within thirty (30) days
of the date of this order, or a late payment
penalty could be assessed. You have twenty (20)
days after the date of this order to file a Request for
Reconsideration with the Tax Commission Appeals
Unit pursuant to Utah Code Ann. §63G-4-302. A
Request for Reconsideration must allege newly
discovered evidence or a mistake of law or fact. If you
do not file a Request for Reconsideration with the
Commission, this order constitutes final agency
action. You have thirty (30) days after the date of
this order to pursue judicial review of this order in
accordance with Utah Code Ann. §59-1-601 et seq.
and §63G-4-401 et seq.

74a
APPENDIX D
_________
STATUTORY PROVISIONS INVOLVED
_________
1.

Utah Code §
pertinent part:

59-10-103

provides

in

Definitions
(1) As used in this chapter:
*

*

*

*

*

(w) “Taxable income” or “state taxable income”:
(i) subject to Section 59-10-1404.5, for a resident
individual, means the resident individual's
adjusted gross income after making the:
(A) additions and subtractions required by
Section 59-10-114; and
(B) adjustments required by Section 59-10115;
(ii) for a nonresident individual, is an amount
calculated by:
(A) determining the nonresident individual's
adjusted gross income for the taxable year,
after making the:
(I) additions and subtractions required by
Section 59-10-114; and
(II) adjustments required by Section 59-10115; and
(B) calculating the portion of the amount
determined under Subsection (1)(w)(ii)(A) that

75a
is derived from Utah sources in accordance
with Section 59-10-117;
*
2.

*

*

*

*

Utah Code § 59-10-116 provides:

Tax on nonresident individual--Calculation-Exemption
(1) Except as provided in Subsection (2), a tax is
imposed on a nonresident individual in an amount
equal to the product of the:
(a) nonresident individual's state taxable income;
and
(b) percentage listed in Subsection 59-10-104(2).
(2) This section does not apply to a nonresident
individual exempt from taxation under Section 5910-104.1.
3.

Utah Code §
pertinent part:

State taxable
sources

59-10-117

income

derived

provides
from

in

Utah

(1) For purposes of Section 59-10-116, state taxable
income derived from Utah sources includes state
taxable income attributable to or resulting from:
*

*

*

*

*

(b) the carrying on of a business, trade,
profession, or occupation in this state;
*

*

*

*

*

76a
4.

Utah Code § 59-10-1003 provides:

Tax credit for tax paid by individual to another
state
(1) Except as provided in Subsection (2), a claimant,
estate, or trust may claim a nonrefundable tax credit
against the tax otherwise due under this chapter
equal to the amount of the tax imposed:
(a) on that claimant, estate, or trust for the
taxable year;
(b) by another state of the United States, the
District of Columbia, or a possession of the
United States; and
(c) on income:
(i) derived from sources within that other state
of the United States, District of Columbia, or
possession of the United States; and
(ii) if that income is also subject to tax under
this chapter.
(2) A tax credit under this section may only be
claimed by a:
(a) resident claimant;
(b) resident estate; or
(c) resident trust.
(3) The application of the tax credit provided under
this section may not operate to reduce the tax
payable under this chapter to an amount less than
would have been payable were the income from the
other state disregarded.

77a
(4) The tax credit provided by this section shall be
computed and claimed in accordance with rules
prescribed by the commission.

